HANCOCK WHITNEY BANK
CREDIT CARD ACCOUNT AGREEMENT

WELCOME TO YOUR ACCOUNT
This document together with the document entitled “Your
Account Opening Disclosures” is a contract (the “Agreement”)
between you and Hancock Whitney Bank governing the terms
of your credit card account with us (the “Account”) and each
card issued to you or to your authorized user to access the
Account (each, a “Card”). In this Agreement, the terms “we”,
“our”, and “us” mean Hancock Whitney Bank, and “you”,
“your”, and “Cardmember” mean each person who applied
for or otherwise agreed to be liable for the Account. We have
agreed to lend you money as described in this Agreement,
and you promise and agree to pay us back together with all
interest charges, fees and other charges assessed on your
Account under this Agreement. By using or permitting others
to use the Account or any Card or by making any payment on
the Account, you indicate your acceptance of the terms and
conditions of this Agreement. Please read this Agreement
carefully and keep a copy of it for your records. If you have any
questions, you may call us at the phone number listed in the
“Your Billing Rights” section below, or on your billing statement
or the back of your Card.

IMPORTANT DEFINITIONS

Please review the important terms below. These definitions
and terms apply to this Agreement and your monthly
billing statement. Other terms are defined elsewhere in this
Agreement. If we use a capitalized term in this Agreement
but do not define it in this Agreement, the term refers to the
corresponding term used in your billing statement.
Credit Limit
This is the amount we will make available on your Account
for your use. We will establish your credit limit, and we may
establish different limits for different types of transactions,
like purchase or cash advances. You agree not to exceed the
established credit limits. You are responsible for repayment of
the total balance of your Account, even if your balance exceeds
your credit limits. You promise to pay any part of the balance
of your Account that exceeds an established credit limit right
away. We will tell you your credit limits when we send you your
initial Card, and your current credit limits will appear on your
billing statement. We may change your credit limits or cancel

1

or restrict your credit availability at any time subject to any
requirements or limitations of applicable law. We may, at our
option, allow your Account to exceed your applicable credit
limits, but we have no obligation to you to do so.
Joint Account
If there is more than one Cardmember on the Account, it is a
joint account, and each of you promise and agree to be jointly
and severally liable for the payment of all amounts owed to us
on the Account, regardless of which Cardmember or authorized
user uses the Account. We may require any of you to pay the
full amount owed without looking to anyone else for payment.
Authorized Users
An authorized user is any person you give your Card to or
authorize to use a Card or your Account. You agree to be
responsible for any use of your Account by any authorized
user or anyone else that you permit to use your Account. If
you wish to have an additional card issued in the name of an
authorized user, please contact us and we will issue a Card with
the name of the authorized user embossed on the card. We
may request that you give us certain personal information about
each authorized user, such as the person’s name, address,
social security number, and date of birth, and you must have
permission from each authorized user to provide that personal
information to us. If you want an authorized user to stop
using your Account, you must notify us, and you must obtain
possession of any Card, checks or other means of accessing
your Account from the authorized user. You will remain liable for
all transactions on your Account by your authorized user until
you recover possession of the Card, checks or other means
of accessing your Account to our satisfaction. If you wish to
terminate an authorized user, we may also close your Account
and open a new Account with a different Account number.
Annual Membership Fee
If your Account has an annual fee, the amount will appear on
Your Account Opening Disclosures which accompany your
Card and this Agreement, and you will be responsible for it
every year your Account is open or until your Account is closed
and paid in full. If your Account has an annual fee, we will add
your annual fee to your billing statement once a year, whether
or not you use your Account.
Amendments
We may change the terms of this Agreement including Annual
Percentage Rates and fees from time to time. We may also add
new terms or delete terms. In addition, we may replace your
Card with another card at any time. Annual Percentage Rates or
other terms may also change without amendment, for example
when the Prime Rate changes. See the “Variable Rates” section
for details. We may change these terms based on changes to
your risk profile, such as changes in your patterns of payments,
transactions, balances, utilization of this and other accounts

2

and credit bureau information. We may also change the terms
for reasons unrelated to your risk profile such as economic and
market conditions, our business needs or applicable law. We
will comply with any notice requirements and other restrictions
of applicable law that are in effect at that time.
Billing Cycle
A billing cycle is the period of time between closing dates for
monthly billing statements on your Account.
Closing Date
A closing date is the date of the last day of a billing cycle.
New Balance
Your New Balance is the outstanding unpaid balance of your
Account on the closing date.
Previous Balance
Your Previous Balance is the outstanding unpaid balance of
your Account at the beginning of the billing cycle.
Monthly Billing Statement
At the end of each billing cycle, we will send a monthly billing
statement for all accounts with a credit or debit balance. The
billing statement includes important information including
(but not limited to) your New Balance, minimum payment due,
credit limit, cash credit limit, transactions since the last billing
statement, and any applicable fees and interest charges.
Payment Due Date
Payments are due on the payment due date shown on your
billing statement. The billing statement also explains when and
where the payment must reach us in order to be considered
received as of that date. Payments are credited as of the date
of receipt, if the payment is received by the required time at
the address shown in the top portion of your billing statement.
If the payment due date falls on a weekend or holiday, we will
treat any payment received by the required time on our next
business day at the address designated by us for the payment
on the billing statement as being received by us on the payment
due date. If the payment does not conform to these payment
instructions, crediting may be delayed and additional charges
may be imposed.
Variable Rates
Your Account has variable Annual Percentage Rates. We
calculate variable Annual Percentage Rates by adding a margin
to the highest U.S. prime rate published in the Money Rate
section of The Wall Street Journal three business days (not
weekends, or federal holidays) before the billing cycle closing
date shown on your billing statement. The Annual Percentage
Rate may increase or decrease each month if the prime rate
changes, and any new rate will become effective retroactive
to the beginning of the billing cycle during which the prime
rate changed and will apply to that entire billing cycle. If the
Annual Percentage Rate increases, you will pay a higher

3

interest charge and may pay a higher minimum payment. See
the “Interest Charges” section below for more details on the
variable Annual Percentage Rates and how we calculate interest
charges on your Account.
Default
Your Account will be in default if:
1) You do not pay at least the minimum payment when due;
2) You exceed your credit limit(s); 3) You fail to comply with
this Agreement or any other agreement you have with us; 4)
We believe you may be unable or unwilling to pay your debts
on time; 5) You die or become incompetent, imprisoned
or insolvent or file for bankruptcy; 6) You gave us false or
misleading information on your application or at any other
time; 7) More than one payment you made was returned to
us unpaid within a 12 month period; or 8) You or any of your
property become subject to seizure, attachment or garnishment
proceedings. Our acceptance of any payment on the Account
after a default will not be a waiver of the default.
If your Account is in default, we may, at our option, suspend or
terminate your ability to use the Account, close the Account,
and require you to pay your unpaid balance immediately,
all without demand or notice to you except as required by
applicable law. We can also begin collection activities. If
you are in default, we may, subject to any applicable legal
limitations, require you to pay our collection costs, attorneys’
fees, court costs, and all other expenses of enforcing our rights
under this Agreement, and you agree to pay those costs, fees
and expenses. Any rights or remedies we have under this
Agreement are in addition to any rights or remedies we may
have under any other agreement with you or under applicable
law, all of which are cumulative.
Business Day
When we use the term Business Day, this generally refers to any
day in which our normal business operations are conducted.
This is generally considered to be Monday through Friday and
excludes weekends and may exclude federal holidays.

USING YOUR ACCOUNT

You agree to use your Account only for personal, family or
household purposes. You agree you will not use or permit
your Account to be used for illegal purposes, such as illegal
internet gambling. We may charge your Account for any illegal
transaction, and we will not be liable if you engage in an
illegal transaction. You may not use your Account to conduct
transactions in any country or territory or with any individual or
entity in violation of any sanctions, restrictions, or prohibitions
administered or enforced by the U.S. Department of Treasury’s
Office of Foreign Assets Control (OFAC). We will have no liability
to you for blocking or failing to block any such transactions. We
will have no liability for any refusal by any merchant, financial

4

institution, or other person to accept any card. You may use
your Account in the following ways:
Purchases
You may use your Account to obtain goods, services, or
products from merchants or businesses that accept your Card.
We authorize charges to your Account in accordance with the
terms of this Agreement.
Balance Transfers
If eligible, you may transfer outstanding balances on other
loans or accounts that you owe to your Account by using
convenience checks, calling us, or using online or digital
transfer. You should be careful to monitor and to continue to
make required payments on any account you transfer a balance
from until you know that the other creditor has given you credit
for the balance transfer. We permit balance transfers from most
non-Hancock Whitney accounts. We do not permit balance
transfers from other accounts or loans you have with us or with
any of our related banks or companies.
Cash Advances
You may obtain cash advances from automated teller machines
(“ATMs”) and banks that accept your Card. We may make only
a portion of your total credit limit available for cash advances.
The portion of your credit limit available for cash advances will
be further limited by any unpaid cash advances at the time of
the transaction. Your credit limits, including the cash credit
limit, are shown on your billing statement. Cash advances from
ATMs may be limited as to amount and frequency. For example,
dollar limits may apply to individual transactions and daily limits
may apply to the total amount of cash advances which may
be obtained in a single day. Different ATM operators may have
different transaction limits and may impose additional fees.
If the ATM operator charges any fee, that fee will be included
as part of the total cash advance amount. We have no control
over any ATM operator or network limits or fees other than
our own. We treat certain other cash-like transactions as cash
advances including purchasing travelers checks, foreigncurrency, money orders, depositing a convenience check into a
personal or business account, wire transfers or similar-cash-like
transactions; purchasing lottery tickets, casino gaming chips,
race track wagers or similar betting transactions; and making a
payment using a third party service. Unless we say otherwise,
convenience checks made payable to cash or to yourself may
be treated as a cash advance.
Convenience Checks
Convenience checks may be offered periodically as an
additional means to access the credit on your Account. We
are unable to stop payments on convenience checks. We
will not return paid convenience checks to you, but you may
ask for copies. See Your Account Opening Disclosures for
any documentation fees. Some restrictions apply to use of

5

convenience checks: they may not be written as payment on
any other loan or credit account with us or any of our related
banks or companies; they may be used only by the person
whose name is printed on the check; they must be written in
U.S. dollars; they cannot be certified; you cannot assert a claim
against us if you have a dispute with a merchant about any
purchase or transaction that you paid for using a convenience
check; and we reserve the right to place other conditions and
limitations on the use of convenience checks and the right
to decline and return unpaid any convenience check in our
discretion. We will generally treat convenience checks as
balance transfers for purposes of calculating interest charges
and fees, except convenience checks made payable to cash
or to yourself or deposited into a personal or business deposit
account may be treated as a cash advance. See the “Interest
Charges” section below for more details. Purchases or balance
transfers made using convenience checks are not eligible for
rewards points.
Automatic Charges
You may set up scheduled and repeat transactions to your
Account. If your Account is closed or suspended, or your
Account number changes, you will need to contact any persons
that you are paying by automatic transactions with updated
payment information. We are not responsible for scheduled and
repeat transactions if your Account is closed or suspended,
the Account number changes, or if you do not have sufficient
credit available on your Account for any reason. You, the
Cardmember, are responsible for initiating, maintaining and
terminating all scheduled, automatic charges to your Account.
Mobile Devices
You or an authorized user may be permitted to load your
Account information to an app on a smartphone or other
electronic device, such as a mobile wallet, which may be used
for purchases or other transactions without presenting the
Card. Any such transactions are covered by this Agreement.
We have no responsibility for the performance of any app or
device. You should protect the security of any electronic device
just as you would your Card or other valuable information. Fees
may be charged by third parties related to any such transaction,
such as data or messaging charges. We may at any time restrict
or limit your ability to make transactions using your Card or
Account information through a third party or electronic device.
Foreign Transaction Fees and Exchange Rate
If we charge a foreign transaction fee on your Account, the
amount will appear in Your Account Opening Disclosures, and
the fee will apply to transactions that are made in a currency
other than U.S. Dollars. You agree to pay those charges. If you
make a transaction in a foreign currency, the card association
or network will convert the transaction into U.S. Dollars in
accordance with its operating rules then in effect. The card
association may charge a conversion fee when this is done

6

which may be added to the amount of the transaction. We do
not determine the exchange rate or card association fees. The
exchange rate used may differ from rates available from other
financial institutions in the U.S. or in the country in which the
transaction occurred. The exchange rate on the processing
date may differ from the rate on the transaction date or posting
date. And in the case of returned merchandise or other credits
for transactions in a foreign currency, the exchange rate used
may differ from the rate applied to the original transaction.
Authorization of Transactions/Closing Your Account
We do not guarantee approval of transactions, and we reserve
the right to deny transactions for any reason, such as default
or suspected fraudulent or illegal activity, or any indication of
risk related to the transaction or Account. We also reserve the
right to close or suspend your Account. Sometimes we limit
or suspend credit availability or close accounts for reasons
other than your actions or inactions, such as market conditions
or our business needs. You may close your Account at any
time by contacting us at the phone number listed in the “Your
Billing Rights” section below, or on your billing statement or
the back of your Card, or you may write to us at the address on
your billing statement. Each Card is the property of Hancock
Whitney Bank, and may be cancelled by us at any time and
must be surrendered to us upon request. We may decline
transactions or suspend or close your Account for any reason,
such as operational matters, the Account is in default, or we
suspect fraudulent or unlawful activity, or for no reason. We
are not responsible for any losses associated with a declined
transaction or suspended or closed Account. After your
Account is closed, whether by you or by us, you may no longer
make transactions on your Account, but you remain liable for
all amounts you owe under this Agreement, and our rights and
your obligations under this Agreement will continue until we
receive payment in full of all amounts you owe.

REPAYMENT

You promise to pay us for all transactions on your Account
including those made by anyone you permit to use your Account
together with all interest charges, fees and other amounts
you owe us under this Agreement. We will send you a billing
statement, if one is required, each month. It will show your
minimum required payment. After you make a payment, it may
take up to 10 days to restore available credit on your Account.
If there is more than one Cardmember on this Account, we may
send the billing statement to any one of you.
Payment Instructions
You must follow the payment instructions on your billing
statement. If you pay us by check, money order, or electronic
payment it must be drawn on a U.S. bank or a foreign bank
branch in the U.S. All payments must be in U.S. Dollars. You
authorize us to convert any check, draft or other paper item to an

7

electronic transaction. We will credit your payment as of the same
day we receive it if the payment is made following the instructions
on your billing statement and we receive it by the time and at
the location specified. Credit for payments made at any other
location or by any other method may be delayed. If we receive
a payment check that is postdated, you agree that we may
process it or return it to you, in either case without waiting for
the check date, and we will not be liable for any loss or expense
you may incur. We may accept and process any check or other
payment marked as “paid in full” or with any other restrictive
words without losing any of our rights to collect the full amount of
your Account balance. You agree not to pay this Account using
another Hancock Whitney Bank credit or loan account without
our permission, and you agree not to pay this Account using a
convenience check.
Minimum Payment
Your minimum payment due each month will be rounded up
to the nearest dollar and be the greater of (i)$10.00 or (ii) 2%
of the New Balance on your billing statement or (iii) the total
of any interest charge and all outstanding charges and fees.
If applicable, your minimum payment due will also include the
greater of the past due amount of any prior minimum monthly
payments or the amount by which the New Balance exceeds the
approved credit limit(s) on the Account. If the New Balance is
less than $10.00, your minimum payment due will be the amount
of the New Balance. You agree to pay at least the minimum
payment when due. You also agree to pay all past due and over
the limit amounts by the payment due date or sooner if we ask.
You can pay down balances faster by paying more than the
minimum payment. You may also prepay your Account in full
or in part at any time without penalty. Any partial prepayment
will not affect your obligation to continue to make minimum
payments when due, and interest charges may continue to
accrue on your remaining balance. Your payment due date will
be at least 25 days after each billing cycle closing date. If you fail
to make a required minimum payment on or before the payment
due date, you agree to pay the Late Payment Fee disclosed in
Your Account Opening Disclosures. The minimum payment, past
due amount, over the limit amount, and any late payment fees
will appear on your billing statement.
Grace Period on Paying Interest on Purchases
The grace period is the time when you are not charged interest
on new purchases made with your Card. Balance transfers,
including convenience checks, and cash advances do not have
a grace period. We do not charge interest on any part of the
balance of purchases you make with your Card that you pay
before the end of the grace period. See the “Payment Allocation”
section below for more information on how the allocation of
payments may affect the grace period on purchases. Also, for
more details about how we calculate your interest charges, see
the “Interest Charges” section of this Agreement.

8

Payment Allocation
When you make a payment, generally, we first apply your
minimum payment to the balances included in calculating your
minimum payment. Any payment above your minimum payment
will generally be applied to the balances with highest Annual
Percentage Rate, and then to each successive balance bearing
the next highest Annual Percentage Rates. You can reduce the
amount of interest you pay by making payments larger than the
minimum payment due.
Applying payments above the minimum payment to the balances
with higher Annual Percentage Rates first could, in some
instances, mean you will not receive the full benefit of the grace
period for new purchases. If, for example, the Annual Percentage
Rate on purchases is higher than the Annual Percentage Rate
on cash advances or balance transfers, payments above your
minimum payment amount may be allocated to the balance of
purchases, including new purchases that have not yet been billed
for the first time, before being allocated to any balance transfer
or cash advance balances. This could also result in additional
interest charges on any balance transfer or cash advance
balances because interest charges apply to balance transfers
and cash advances until they are paid in full.
Credit Balances
You may request a refund of any credit balance. We do not pay
interest on credit balances. If you do not request a refund, we will
apply your credit balance to new charges on your Account. If a
credit balance meets a minimum threshold amount and remains
on your Account for a minimum time period as defined by
applicable law, we will automatically refund it to you.

INTEREST CHARGES

This section describes how we compute interest charges on your
Account. The Monthly Periodic Rates and Annual Percentage
Rates in effect at the time this Agreement was prepared may be
found in Your Account Opening Disclosures. You promise and
agree to pay the interest charges and fees as provided in this
Agreement and Your Account Opening Disclosures.
Periodic Interest Charge Calculation
We compute interest charges separately on purchases, cash
advances, balance transfers, and promotional balances, and the
total interest charges will be disclosed on your billing statement
as Interest Charge. No interest charges will be imposed on new
purchases made with your Card that are billed for the first time if
you pay the entire New Balance of your Account shown on the
billing statement by the Payment Due Date. Interest charges will
be imposed on cash advances from the date of the transaction
and continuing until the balance of cash advances is paid in full.
Interest charges will be imposed on balance transfers beginning
on the date each transaction is posted to your Account and
continuing until the balances are paid in full. There is no grace

9

period to avoid paying interest charges on cash advances or
balance transfers.
Average Daily Balance
We figure the interest charges on your account by applying the
applicable Monthly Periodic Rate to the average daily balance
(including new transactions) for each transaction category
on your Account. Transaction categories include purchases,
balance transfers, cash advances, and promotional balances.
We calculate the “average daily balance” for each transaction
category by taking the beginning balance of that transaction
category each day and adding any new transactions in that
category to the balance (except, we will not include new
purchases made with your Card if you have paid in full the New
Balance on your previous billing statement by the Payment Due
Date on that statement or if the New Balance on your previous
billing statement was zero). We then subtract any payments or
credits and unpaid interest or other “Finance Charges” allocated
to the transaction category balance for the day. This gives us the
daily balance for the transaction category. The daily balances for
the transaction category are then added together and divided by
the number of days in the billing cycle. The result is the average
daily balance for that transaction category and is shown on your
billing statement as the “Balance Subject to Interest Rate.”
Introductory and Promotional Rates
Your Account may be eligible for introductory rates. If so, this
will be described in Your Account Opening Disclosures. If you
are offered a promotional rate after your Account is opened, the
terms will be provided to you at that time. After any introductory
or promotional rates expire, the remaining balances will be
subject to the applicable standard variable Annual Percentage
Rates.
Variable Annual Percentage Rates and Monthly Periodic Rates
Your Account has a variable Annual Percentage Rate for
each transaction category. We determine the variable Annual
Percentage Rate separately for each transaction category by
adding a margin to the highest U.S. Prime Rate published in the
Money Rate section of The Wall Street Journal three business
days (not weekends, or federal holidays) before the closing
date shown on your billing statement. A different margin may
apply to different transaction categories. (See Your Account
Opening Disclosures for information on your margins.) The
Annual Percentage Rate may increase or decrease each month
if the Prime Rate changes. Any new rate will become effective
retroactive to the beginning of your billing cycle during which the
Prime Rate changed, and the new rate will apply to that entire
billing cycle. If the Annual Percentage Rate increases, you will
pay a higher interest charge and may pay a higher minimum
payment. The Prime Rate is simply a reference index and is
not the lowest interest rate available. If The Wall Street Journal
changes its method of determining, or stops publishing, the
Prime Rate, we may substitute a different reference rate.

10

To calculate the Monthly Periodic Rate for each transaction
category, we divide the Annual Percentage Rate for that category
of transactions by 12. We may combine different transaction
types that have the same monthly interest rates. To calculate the
interest charges on your Account:
• We multiply the Monthly Periodic Rate by the Average Daily
Balance for each transaction type.
• We add together the interest charges for each transaction
type for the billing cycle.
• If a minimum interest charge is disclosed in Your Account
Opening Disclosures, we will charge you at least the
minimum interest charge any time an interest charge is due.
Adding New Transactions and Fees
We add transactions and fees to your daily balance no earlier
than:
• For new purchases or cash advances – the date of the
transaction.
• For convenience checks and balance transfers – the date of
posting to your Account.
• Fees – either on the date of a related transaction, the date
they are posted to your Account, or the last day of the billing
cycle, whichever we may choose.
Residual Interest
Interest charges will be imposed on cash advances from the
date of the transaction and continuing until the balance of
cash advances is paid in full. Interest charges will be imposed
on balance transfers beginning on the date each transaction
is posted to your Account and continuing until the balances
of balance transfers are paid in full. Even if you pay your New
Balance in full by the payment due date, your next billing
statement may include interest charges on previously billed cash
advances and balance transfers for the period of time between
your previous statement and the date your payment was applied.
Penalty Annual Percentage Rates
If a Penalty Annual Percentage Rate is disclosed in Your Account
Opening Disclosures (“Penalty Rate”), the Penalty Rate disclosed
will apply and become the Annual Percentage Rate applicable
to purchases, balance transfers, and cash advances if you fail
to make at least your minimum payment within 60 days after its
due date, subject to any advance notice requirement required by
applicable law. Your Account will remain at the Penalty Rate until
you make six consecutive timely minimum periodic payments
beginning with the payment due immediately following the
effective date of the Penalty Rate. At the time you meet these
requirements, the Penalty Rate will terminate and your Annual
Percentage Rate will revert to the Annual Percentage Rate
defined in Your Account Opening Disclosures. If we decide not
to increase your Annual Percentage Rate even though there is
a default, or if we do not increase your Annual Percentage Rate
to the maximum Penalty Rate stated in the then-current Your

11

Account Opening Disclosures, we reserve our right to increase
your Annual Percentage Rate to the Penalty Rate in the event
of any future or continuing default. We may in our discretion
determine to charge reduced Penalty Rates or reinstate standard
rates for all or selected balances of your Account without notice.

PAYING FEES AND INTEREST
Paying Fees
Certain transactions and situations may cause your Account
to receive a fee or have another impact on your Account. The
amounts of these fees are disclosed in Your Account Opening
Disclosures. Your Account Opening Disclosures may indicate an
amount “up to” a certain limit for penalty fees, like a late payment
fee, because applicable law may restrict our ability to impose
the full amount of the penalty fee in some circumstances. If this
applies, additional detail reflecting limitations imposed under
applicable law will be explained in the “Penalty Fees” provision
below the rates and fees table in Your Account Opening
Disclosures. Additional services we may offer after your Account
is opened may incur additional service fees; be sure to carefully
review the details of any additional services to understand the
terms.
Paying Interest
To avoid paying interest on new purchases, pay your New
Balance in full each month. We will not charge you interest on
new purchases billed for the first time if you pay your entire
balance by the due date each month. We will begin charging
interest on balance transfers on the posting date. We will begin
charging interest on cash advances on the transaction date.
You cannot avoid paying interest on cash advances or balance
transfers.
Cash Advance Fee
A transaction fee will be imposed on each cash advance and
added to your Account. The amount of the fee is disclosed in
Your Account Opening Disclosures.
Balance Transfer Fee
A transaction fee will be imposed on each balance transfer and
added to your Account. The amount of the fee is disclosed in
Your Account Opening Disclosures.
Convenience Check Fee
A transaction fee will be imposed on each convenience check.
We generally treat convenience checks like balance transfers
and the balance transfer fee disclosed in Your Account Opening
Disclosures will be imposed on each convenience check.
However, a convenience check made payable to cash or to
yourself or which is deposited into a personal or business
deposit account may be treated as a cash advance, and the cash
advance fee disclosed in Your Account Opening Disclosures may
be imposed.

12

Returned Payment Fee
Do not submit a payment that could be returned unpaid. If a
Returned Payment Fee is disclosed in Your Account Opening
Disclosures, we may charge this fee if the payment you offer to
us is not honored, is returned unpaid, or cannot be processed for
any reason.
Collections and collection costs and expenses
Do not default. If you are in default, we may take the actions
described in the “Default” section under Important Definitions
above.

FREQUENT INQUIRIES

Review this section for common situations or questions that
might require action by you or Hancock Whitney.
You think you found a mistake on your statement.
Contact us at the phone number listed in the “Your Billing Rights”
section below, or on your billing statement or the back of your
Card, or you may write to us at the address on your billing
statement. We will investigate and contact you with our findings.
Please see the “Your Billing Rights” section below for more
details.
You are dissatisfied with a credit card purchase.
You should first attempt to resolve the problem with the
merchant. Then, contact us about the purchase. We will research
the problem and contact you with our findings. Please see the
“Your Billing Rights” section below for more details.
Your card is lost or stolen or you suspect unauthorized use of your
Account.
If your Card is lost, stolen or you think someone used your
Account without your permission, you should call us immediately
at the phone number listed in the “Your Billing Rights” section
below, or on your billing statement or the back of your Card.
You may also contact us at the address shown on your billing
statement. We need your help to find out what happened and
correct the problem. You will not be liable for any unauthorized
use that occurs after you notify us. You may, however, be liable
for unauthorized use that occurs before your notice to us. In
any case, your liability will not exceed $50 or any lesser amount
set by applicable law or card association rules at the time of the
occurrence.
Your Account is closed or suspended.
Even if your Account is closed or suspended, you remain
responsible for your Account, and you must still repay all
amounts you owe on the Account in accordance with the terms
of this Agreement.
You want to transfer a balance or make a cash advance.
You will incur a transaction fee for these transactions. See Your
Account Opening Disclosures for the amount of these fees.

13

Your address changes.
Let us know immediately if your address or contact information
changes. You may contact us by calling the phone number
listed in the “Your Billing Rights” section below, or on your billing
statement or the back of your Card, or you may write to us at the
address found on your billing statement.

OUR RELATIONSHIP WITH YOU

Maintaining a positive relationship with you is important to us.
Please review these terms to understand more about your
Account and this Agreement.
Communications
We may send cards, statements and other communications
to you at any mailing or email address we have for you in our
records. If more than one person is responsible for this Account,
we can provide billing statements and communications to only
one of you. When you give us your mobile phone number,
you agree that we have your permission to contact you at
that number about all your Hancock Whitney accounts. You
also agree that your consent allows us to use text messaging,
artificial or prerecorded voice messages and automatic dialing
technology for informational and account service calls, but not
for telemarketing or sales calls. It may include contact from
companies working on our behalf to service your accounts
with us. Message and data rates may apply. You may contact
us anytime to change these preferences. We may also send
an email to any address where we reasonably believe we can
contact you. Some of the legal purposes for calls, text messages
and emails include: suspected fraud or identity theft; obtaining
information; transactions on or servicing of your accounts;
collecting on your accounts; and providing you information about
our products and services. Notify us immediately of any changes
to your contact information using the address or phone number
shown on your billing statement or the phone number shown on
the back of your Card.
Loyalty Programs
The terms and conditions for any loyalty programs offered for
your Account are voluntary and separate and distinct from the
terms of your Card Agreement. Participation in loyalty programs,
such as rewards programs, means you agree to the loyalty
program’s terms and conditions. We have the right to terminate
loyalty programs at any time and without notice. In addition, the
benefits and rewards of loyalty programs may be changed or
removed at any time without notice to you. The separate and
distinct loyalty agreement means a change to its terms in no way
impacts the relationship maintained under this Agreement. For
additional information about loyalty programs, you may call us
at the phone number listed in the “Your Billing Rights” section
below, or on your billing statement or the back of your Card.

14

Telephone Monitoring
We may listen to and record your telephone calls with us.
Credit Information
We may obtain and review your credit history from credit
reporting agencies and others. We may, from time to time, obtain
employment and income data from third parties to assist us in
the ongoing administration and review of your Account. We may
also provide information about you and your Account to credit
reporting agencies and others. Late payments, missed payments,
or other defaults on your Account may be reflected in your credit
report. We may provide information to credit reporting agencies
about this Account in the name of an authorized user. If you think
we may have provided incorrect information, contact us and we
will investigate.
Enforcement
We may enforce the terms of this Agreement at any time. If we
choose, we may do any of the following without notice to you
and without affecting your liability under this Agreement: 1)
extend the time for payment, 2) waive or delay enforcing any
of our rights without losing those rights, 3) release or excuse
any Cardmember or guarantor from any obligations under
this Agreement, or 4) release or surrender any collateral, all
without losing our rights against any person. If any terms of this
Agreement are found to be unenforceable for any reason, we
may still enforce the other terms.
Security Interest
If you have other loans with us or take out other loans with us in
the future, collateral securing those other loans will also secure
your obligations to us under this Agreement. However, unless
you expressly agree otherwise in writing and we give you any
additional disclosures required by applicable law and regulation,
your household goods and your primary dwelling will not secure
your obligations under this Agreement even if we have or obtain
later a security interest in the household goods or a mortgage
or security interest on the dwelling. Also, we waive any rights
we may have to offset any amounts you owe us under this
Agreement against any funds you may have on deposit with us
unless we first obtain a judgment against you for what you owe,
or unless we have a consensual security interest in such funds or
obtain or enforce a court order relating to the such funds.
Governing Law
This Agreement and your Account will be governed by applicable
federal laws and the laws of the State of Mississippi, and those
laws will apply no matter where you live or use this Account.
Assignment
We may assign your Account, balances you owe, or any of
our rights and obligations under this Agreement without your
consent. You may not assign any of your rights or obligations
under this Agreement.

15

Relationship Pricing
Some accounts may receive rate and fee pricing based on
the relationship of the Cardmember or account to us, such as
employee accounts. If any relationship pricing is associated
with this Account, that pricing may terminate at the point the
relationship qualifying the Account terminates.
Covered Borrowers under the Military Lending Act
Some terms will not apply to any person who is a “covered
borrower” under the Military Lending Act, 10 U.S.C. §987, at
the time this Agreement is entered into. A covered borrower
includes any person on active duty with the U.S. military and their
dependents. Please see the section on “Important Information
about the Military Lending Act” below for more information.
Severability
Hancock Whitney hopes for a long and positive relationship
during which this Agreement will remain in place. The Bank fully
anticipates that laws, regulations, statutes and court decisions
will change over the course of our relationship. Should any part
of the Agreement be negated by future laws, regulations, statutes
or court decisions, the remainder of the Agreement will still bind
the Cardmember relationship.

Your Billing Rights

Keep This Notice For Future Use.
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find a Mistake on Your Statement.
If you think there is an error on your statement, write to us at:
Hancock Whitney Bank
Credit Card Center
PO Box 61750
New Orleans, LA 70161-1750
1-800-448-8812
In your letter, give us the following information:
• Your name and Account number;
• The date and dollar amount of the suspected error.
• If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing at the address
above. You may notify us using other ways (including telephone),
but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

16

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us. If we do not follow all of the rules above, you
do not have to pay the first $50 (or less, if required by applicable
law or card association rules) of amount you question even if
your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)

17

2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at:
Hancock Whitney Bank
Credit Card Center
PO Box 61750
New Orleans, LA 70161-1750
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

IMPORTANT INFORMATION ABOUT THE MILITARY
LENDING ACT
The Military Lending Act, 10 U.S.C. § 987, and related regulations
of the U. S. Department of Defense (together, the “MLA”) provide
important benefits to any person who is a “covered borrower”
under the Act when obtaining certain types of consumer credit.
Please review these terms to understand more about whether
you are a covered borrower and how this affects your Account
and this Agreement.
Who is a “covered borrower”?
The MLA generally defines a covered borrower as:
1. Full time active duty servicemembers and those under a
call or order to active duty of 30 days or more, and those on
Active Guard or Reserve Duty;
2. The covered servicemember’s dependents including his
or her: spouse, children under age 21, children under age
23 enrolled as a full-time student at an institution of higher
learning and dependent on the covered servicemember for
over one-half of their support, children of any age incapable
of self-support due to mental or physical incapacity that
occurred while a dependent of the covered servicemember
and who are dependent on a covered servicemember
for over one-half of their support, parent or parent-in-law
who is dependent on the covered servicemember for over
one-half of the person’s support and who resides in the
covered member’s household, and an unmarried person
in the legal custody of the covered servicemember who: (i)
is either under age 21, under age 23 and enrolled in a full
time course of study at an institution of higher learning, or
is incapable of self-support because of a mental or physical
incapacity; (ii) is dependent on the covered servicemember
for over one-half of the person’s support; and (iii) who
resides with the covered servicemember unless separated
by military service or to receive institutional care.

18

What are the benefits for covered borrowers?
• If you are a covered borrower, the MLA provides you with
certain benefits when you obtain many types of consumer
credit, including the following:
• 36% MAPR interest cap. The Military Annual Percentage
Rate (MAPR) may not exceed 36%. This might sound
unusually high, but this calculation includes more than just
the interest rate. It also takes into account certain other
fees and charges. The Statement of the Military Annual
Percentage Rate below describes what is included in the
MAPR.
• Certain credit or loan terms are prohibited including: use
of mandatory arbitration clauses; waiver of any right to
recourse under applicable state or federal law including the
Servicemembers Civil Relief Act; requiring unreasonable
notice from the borrower as a condition for legal action;
requiring establishment of an allotment to repay the loan;
prepayment penalties or provisions prohibiting prepayment;
and requiring use of a check or other means of access to
the borrower’s deposit Account.
• Federal law requires that you receive a clear description of
your required payments.
Some exceptions and limitations apply. This is not a
comprehensive description of all of the terms of the MLA. You
may want to consult with your military commanders, military legal
assistance officers or other legal counsel for more information.
How does the MLA affect this Agreement?
If you are a covered borrower at the time you become legally
obligated for this Account, the following additional terms will
apply to you and will control over any inconsistent terms in the
Agreement:
• We waive any annual fee. We will charge interest and
impose other fees as provided in the Agreement, except that
your MAPR will never exceed 36% (See the Statement of the
Military Annual Percentage Rate below). See Your Account
Opening Disclosures for a description of your required
minimum monthly payment. You may prepay the balance of
your Account in full or in part at any time without penalty.
• We waive any other provision or requirement of the
Agreement which would violate the MLA. Any such waived
provision or requirement is severed from this Agreement
and does not apply to any Covered Borrower under this
Agreement. We may enforce the remaining provisions of the
Agreement.
Statement of the Military Annual Percentage Rate
Federal law provides important protections to members of the
Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may

19

not exceed an annual percentage rate of 36 percent. This rate
must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for
ancillary products sold in connection with the credit transaction;
any application fee charged (other than certain application
fees for specified credit transactions or accounts); and any
participation fee charged (other than certain participation fees for
a credit card account).
Payment Obligation
Generally, your minimum monthly payment under your account
shall be the greater of (i)$10.00 or (ii) 2% of the New Balance on
your billing statement or (iii) the total of any interest charge and
all outstanding charges and fees. If the New Balance is less than
$10.00, your minimum payment due will be the amount of the
New Balance. See the “Minimum Payment” section for details.
For More Information
You may call us at the phone number listed in the “Your Billing
Rights” section above, or on your billing statement or the back
of your Card, to receive a Statement of the Military Annual
Percentage Rate and a description of your payment obligation,
or if you have any questions about the MLA and your Agreement
with us.

20

F03-Y096-9

